TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Compliance With Freedom of Information Act
                       Requirements Has Increased



                                         August 31, 2006

                              Reference Number: 2006-10-129




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 31, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                         (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Compliance With Freedom of Information Act
                               Requirements Has Increased (Audit # 200610005)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) compliance
 with Freedom of Information Act (FOIA)1 requirements. The overall objective of this review
 was to determine whether the IRS improperly withheld information requested by taxpayers in
 writing, based on FOIA exemption (b)(3), in conjunction with Internal Revenue Code Section
 (I.R.C. §) 6103,2 and/or FOIA exemption (b)(7), or by replying the requested records were not
 available. Under IRS Restructuring and Reform Act of 1998 § 1102 (d)(3)(A),3 the Treasury
 Inspector General for Tax Administration is required to conduct periodic audits of a statistically
 valid sample of the total number of determinations made by the IRS to deny written requests to
 disclose information to taxpayers on the basis of I.R.C. § 6103 or FOIA exemption (b)(7). We
 also are required to include the results of this audit in one of our Semiannual Reports to
 Congress.

 Synopsis
 The FOIA, the Privacy Act of 1974,4 and I.R.C. § 6103 govern the release of Federal
 Government records to the public. The FOIA requires that records be made available to the

 1
   5 U.S.C.A. § 552 (West Supp. 2003).
 2
   I.R.C. § 6103 (2004).
 3
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 4
   5 U.S.C. § 552a (2000).
                             Compliance With Freedom of Information Act
                                    Requirements Has Increased




public upon request unless specifically exempt. The Privacy Act contains a provision that
prevents Federal Government agencies from relying on any exemption in the Privacy Act to
withhold records that are otherwise available to an individual under the FOIA. I.R.C. § 6103
protects the confidentiality of taxpayers’ returns and return information, while providing a means
for taxpayers to request their specific documents and information or request that it be disclosed
to their designees.
In 6.1 percent (5 of 82 cases) of the FOIA and Privacy Act cases we sampled, the IRS did not
provide complete responses and improperly withheld information from requestors. This
represents a lower percentage of improper withholdings than reported in our Fiscal Year 2005
audit report5 (7.1 percent). In addition, in 2.3 percent (2 of 87 cases) of the I.R.C. § 6103 cases
we sampled, the IRS improperly withheld information from requestors. This represents a
slightly lower percentage of I.R.C. § 6103 cases than the 3.1 percent of improper withholdings
we reported last year.
The percentage of untimely responses to FOIA and Privacy Act requests also decreased to
7.3 percent (6 of 82 cases) in this year’s sample, as compared with the untimely rates in our
previous audit reports. In our previous 6 years’ audits, the percentages of untimely responses
ranged from 13.1 percent to 43.5 percent.

Response
We made no specific recommendations during this audit since recommendations made in
previous Treasury Inspector General for Tax Administration audit reports are still valid for the
issues reported. However, IRS management reviewed a discussion draft of this report and agreed
with the facts, findings, and outcome measures presented.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Acting
Assistant Inspector General for Audit (Headquarters Operations and Exempt Organizations
Programs), at (202) 622-8500.




5
 Some Improvements Have Been Made to Better Comply With Freedom of Information Act Requirements
(Reference Number 2005-10-089, dated May 2005).



                                                                                                  Page 2
                                     Compliance With Freedom of Information Act
                                            Requirements Has Increased




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Has Reduced the Percentage of
          Improperly Denied Requests for Information...............................................Page 4
          Disclosure Offices Significantly Improved the Timeliness of
          Responding to Requests for Information ......................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measures...............................................................Page 12
           Compliance With Freedom of Information Act
                  Requirements Has Increased




                 Abbreviations

E-DIMS        Electronic-Disclosure Information Management System
FOIA          Freedom of Information Act
FY            Fiscal Year
I.R.C. §      Internal Revenue Code Section
IRS           Internal Revenue Service
TIGTA         Treasury Inspector General for Tax Administration
U.S.C.        United States Code
                                Compliance With Freedom of Information Act
                                       Requirements Has Increased




                                            Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to:
        . . . conduct periodic audits of a statistically valid sample of the total
        number of determinations made by the Internal Revenue Service to deny
        written requests to disclose information to taxpayers on the basis of
        section 61032 of this title3 or section 552(b)(7) of title 5, United States
        Code [U.S.C.].4
The three primary laws that govern the types of requests for information reviewed in this audit
are:
The Freedom of Information Act (FOIA) requires Federal Government agencies to make
records available to the public upon request unless
specifically exempted. Information that is “specifically
exempted from disclosure by statute” is one of the                    The FOIA requires
exemptions. Internal Revenue Code Section (I.R.C. §) 6103        agencies   to make records
                                                                 of the Federal Government
is an example of such a statute; it protects the confidentiality    available to the public
of tax returns and return information. Records and/or                upon request unless
information compiled for law enforcement purposes are also           specifically exempt.
exempt from disclosure under the FOIA.
The Privacy Act of 19745 prohibits Federal Government agencies from relying on any
exemption in the Privacy Act to withhold records that are otherwise available to an individual
under the FOIA.
I.R.C. § 6103, while protecting the confidentiality of taxpayers’ returns and return information,
does allow a taxpayer, or a person designated by the taxpayer, to request and receive the
taxpayer’s specific documents and information.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). The requirement for
this audit is in Section 1102 (d)(3)(A) of the statute.
2
  Internal Revenue Code Section (§) 6103 (2001).
3
  26 U.S.C.
4
  Freedom of Information Act, 5 U.S.C.A. § 552 (West Supp. 2003).
5
  5 U.S.C. § 552a (2000).



                                                                                                          Page 1
                           Compliance With Freedom of Information Act
                                  Requirements Has Increased




IRS processing and reporting of FOIA cases
Within the IRS, the Small Business/Self-Employed Division Office of Communications, Liaison,
and Disclosure (through its Governmental Liaison and Disclosure function) is responsible for
ensuring timely compliance with the FOIA, the Privacy Act, and I.R.C. § 6103. The Office of
Disclosure within the Governmental Liaison and Disclosure function sets policy and issues
instructions, guidelines, and procedures to ensure compliance with the disclosure statutes.
The Disclosure offices within the Small Business/Self-Employed Division processed almost all
the FOIA and Privacy Act requests received by the IRS through January 2006. Beginning in
February 2006, responsibility for processing the requests for tax compliance checks and
transcripts was transferred from the Small Business/Self-Employed Division Disclosure offices
to the Wage and Investment Division Return and Income Verification Services Unit.
In its FOIA Annual Report for Fiscal Year (FY) 2005, the IRS reported that, of the 42,533 FOIA
cases it processed, the IRS denied or partially denied information to requestors in 3,065 cases
(7.2 percent). The IRS also reported it advised requestors that there were no records responsive
to requests in 11,795 cases (27.7 percent). The remaining cases were either granted in full or
closed for miscellaneous reasons, such as improper requests or requests that had been granted
previously.

Audit limitations and standards
Written requests for information made under I.R.C. § 6103 were processed by either individual
IRS Disclosure offices or other IRS offices having custody of the records requested. While the
IRS is not required to track requests made under I.R.C. § 6103, the IRS has elected to do so for
requests received by IRS Disclosure offices, which use the Electronic-Disclosure Information
Management System (E-DIMS) to track requests made under both the FOIA and the Privacy
Act. Requests made under I.R.C. § 6103 that were received and processed by IRS offices other
than Disclosure offices are neither controlled on the E-DIMS nor otherwise inventoried.
Consequently, the volume of these requests is not known. As a result, we can statistically
sample only the I.R.C. § 6103 requests processed directly by the IRS Disclosure offices and
tracked by the IRS on the E-DIMS. We reviewed requests that were denied during the 6-month
period from April 1, 2005, through September 30, 2005.
During the 6-month period, IRS Disclosure offices processed 19,000 requests made under either
the FOIA or the Privacy Act. The IRS denied or partially denied 1,339 of these requests
(7.1 percent) based on FOIA exemptions (b)(7) or (b)(3) in conjunction with I.R.C. § 6103. The
IRS response to 5,070 of the 19,000 requests (26.7 percent) made under the FOIA or the Privacy
Act was that records were not available. We selected our sample cases from a total population of
6,409 cases, which included both the 1,339 denied or partially denied cases and the
5,070 responses that no records were available.


                                                                                           Page 2
                                Compliance With Freedom of Information Act
                                       Requirements Has Increased




During this same 6-month period, IRS Disclosure offices processed 15,948 requests made under
I.R.C. § 6103. We estimated the Disclosure offices denied information, or told requestors that
records were not available, for approximately 30 percent of these requests (4,719 requests).6 The
remaining requests were granted in full, or information on the disposition was not available.
This review was performed at the Governmental Liaison and Disclosure function in
Washington, D.C., during the period January 2006 through July 2006. The audit was conducted
in accordance with Government Auditing Standards. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




6
 We estimated this number based on the ratio of cases in our sample in which requestors were denied information or
were told records were not available (see Appendix I).



                                                                                                          Page 3
                             Compliance With Freedom of Information Act
                                    Requirements Has Increased




                                  Results of Review

The Internal Revenue Service Has Reduced the Percentage of
Improperly Denied Requests for Information
The IRS has continued to improve its service to FOIA, Privacy Act, and I.R.C. § 6103
requestors. The percentages of improper withholdings decreased during the period from which
our sample cases were drawn (April 1, 2005, through September 30, 2005) when compared with
the previous audit period. Figure 1 shows the percentage of improper withholdings for
FOIA/Privacy Act and I.R.C. § 6103 requests identified in this audit and the six prior audits we
have conducted.


   Figure 1: Improper FOIA/Privacy Act and I.R.C. § 6103 Request Withholdings




              Source: TIGTA audit reports for FYs 2000-2006.



For this audit, in 5 (6.1 percent) of the 82 FOIA and Privacy Act cases sampled and
2 (2.3 percent) of the 87 I.R.C. § 6103 cases sampled, the IRS did not provide complete
responses and improperly withheld requested information. When projected to the population of
6,409 FOIA and Privacy Act cases and 4,719 I.R.C. § 6103 cases closed by the Disclosure
offices during our sample period, we estimate there were 391 FOIA and Privacy Act cases and


                                                                                          Page 4
                               Compliance With Freedom of Information Act
                                      Requirements Has Increased




109 I.R.C. § 6103 cases for which the Disclosure offices did not provide available tax records to
the requestors.7
As a result, there is potential that taxpayers’ rights were violated, additional burden could be
placed on taxpayers, and the IRS could incur additional costs. For FOIA requests, if the IRS
reports that no responsive records exist or denies any part of the request, the requestor may
appeal the IRS decision administratively. If the IRS denies the administrative appeal, the
requestor has the right to appeal the denial in court. Preparing and processing the appeals would
place additional burden on the requestor and additional costs to the IRS. During FY 2005, the
IRS processed 324 appeals; 283 (87.3 percent) cases were completely upheld, 23 (7.1 percent) of
the denials were partially reversed, 9 (2.8 percent) were completely reversed, and 9 (2.8 percent)
were closed for other reasons. The requestors did not appeal the IRS’ determination in the five
cases from our sample for which the IRS did not provide complete responses and improperly
withheld requested information.
There are no appeal provisions for requests that are partially or fully denied or for which no
records were responsive to the requests for I.R.C. § 6103 cases. Requestors could incur
additional burden if they decided to request the information again, and the IRS would incur
additional costs to process the requests.
We analyzed the five FOIA and Privacy Act cases and the two I.R.C. § 6103 cases with improper
withholdings and determined the types of information improperly withheld have remained
relatively constant over all seven audit periods. The most common types of information
withheld were miscellaneous IRS forms and documents associated with tax transcript
information.
Errors occurred mainly because of inadequate research or simple oversight by the Disclosure
caseworkers. For example, for two of the FOIA cases, the Disclosure caseworkers either did not
conduct complete research or did not follow up with the Files function when requested
information was not received. In the other cases, the Disclosure caseworkers either addressed
only one part of a two-part request or stated information was not available when it was readily
available.




7
 See Appendix I for an explanation of our sampling methodology and Appendix IV for a description of the outcome
measures.




                                                                                                       Page 5
                                  Compliance With Freedom of Information Act
                                         Requirements Has Increased




In response to prior TIGTA reports,8 the IRS initiated actions to improve the quality of
responses. Recommendations made in previous audit reports are still valid for the quality issues
contained in this report. As a result, we are making no additional recommendations.

Disclosure Offices Significantly Improved the Timeliness of
Responding to Requests for Information
The FOIA requires Federal Government agencies to respond within 20 business days9 of the
receipt of a request or to notify the requestor of the reason why the request cannot or will not be
filled. Federal Government agencies are required to notify the requestor immediately if they are
unable to respond to the request within the time limit, stating the reasons why they are unable to
respond and advising the requestor of his or her right to appeal. The due date for a FOIA request
is revised when the IRS sends a letter to the requestor exercising its right for an automatic
extension of 10 business days and/or requesting a voluntary extension in excess of the initial
statutory 20 business day period for FOIA requests.10 The requestor must agree to the voluntary
extension, and the IRS must notify the requestor of its ability to respond by the end of the
extension period. A case is untimely when the IRS responds to the requestor after the due date.
For Privacy Act cases, the IRS must respond within 30 business days of the taxpayer’s request.
Since FY 2000, the IRS has made some significant improvements in the timeliness of responses
to FOIA and Privacy Act requests. For 6 (7.3 percent) of the 82 FOIA and Privacy Act cases, the
Disclosure offices did not respond to the requestors in the time required by law. In these
instances, taxpayers did not receive the level of service envisioned under the statute. We
estimate from the population of 6,409 cases closed during the period April 1, 2005, through
September 30, 2005, with a disposition code of denied, partially denied, or no responsive record,
there were 469 FOIA and Privacy Act requests not processed timely. This represents a further
decrease in the number of untimely cases compared with prior TIGTA audits. Figure 2 shows
the percentages of untimely cases we have reported since FY 2000.




8
  Some Improvements Have Been Made to Better Comply With Freedom of Information Act Requirements
(Reference Number 2005-10-089, dated May 2005); Improvements Are Needed to Ensure Compliance With the
Freedom of Information Act (Reference Number 2004-40-064, dated March 2004); Actions Should Continue to Be
Taken to Improve Compliance With the Freedom of Information Act and Related Procedures (Reference Number
2002-10-093, dated May 2002).
9
  Business days exclude Saturdays, Sundays, and legal public holidays.
10
   The 10-day extension is “automatic” in that it is solely at the discretion of the Disclosure officer; the voluntary
extension requires notification to the requestor who may then respond and file an appeal. Either or both extensions
may be used in a given case.



                                                                                                               Page 6
                                Compliance With Freedom of Information Act
                                       Requirements Has Increased




           Figure 2: Comparison of Untimely FOIA/Privacy Act Responses11




           Source: TIGTA audit reports for FYs 2000-2006.

We were unable to determine the reasons why the six FOIA and Privacy Act cases were untimely
based on the information in the case files. In ****1**** of the six cases, extension letters were
sent to the requestors and due dates were appropriately revised, but the IRS responded to the
requestor after the revised due dates. In ****1**** of the six cases, the IRS simply missed the
original due dates and issued no extension letters. ****1****
                                             The untimely cases ranged from 1 to 28 business
days past due.
In response to a prior TIGTA report,12 the IRS initiated actions to improve the timeliness of
responses. Recommendations made in previous TIGTA audit reports are still valid for the
timeliness issue contained in this report. As a result, we are making no additional
recommendations.




11
   We did not evaluate the timeliness of responses to FOIA and Privacy Act requests in the FY 2004 audit because
the IRS was in the process of implementing TIGTA recommendations to improve timeliness.
12
   Actions Should Continue to Be Taken to Improve Compliance With the Freedom of Information Act and Related
Procedures (Reference Number 2002-10-093, dated May 2002).



                                                                                                          Page 7
                               Compliance With Freedom of Information Act
                                      Requirements Has Increased




                                                                                  Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS improperly withheld
information requested by taxpayers in writing, based on FOIA1 exemption (b)(3), in conjunction
with I.R.C. § 6103,2 and/or FOIA exemption (b)(7), or by replying the requested records were
not available. Specifically, we:
I.      Determined if the IRS Disclosure offices adhered to statutory FOIA and Privacy Act of
        19743 requirements and procedural requirements.
        A. Obtained a national extract from the E-DIMS for the period April 1, 2005, through
           September 30, 2005, and identified 6,409 FOIA and Privacy Act cases closed as
           denied or partially denied based on FOIA exemption (b)(3), in conjunction with
           I.R.C. § 6103, and/or FOIA exemption (b)(7), or where the IRS replied responsive
           records did not exist. We performed specialized queries of the national extract data
           and determined that the data were reliable.
        B. Designed an attribute sample based on a 90 percent confidence level, an expected
           error rate of 8.18 percent, and an estimated precision of +5 percent. This sampling
           methodology was chosen so we could project the number of cases with improper
           withholdings to the universe of cases that were partially or fully denied based on
           FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
           exemption (b)(7), or where requestors were told records were not available. The
           sampling plan and methodology are the same as those used in prior audits.
        C. Reviewed a random sample of 82 cases selected in Step I.B. and determined if the
           decision to withhold information was appropriate, the record search was adequate,
           and the determination was made timely.
        D. Based on results from Step I.C., projected the number of improper withholdings in the
           range of 114 to 668 (1.8 percent to 10.4 percent) FOIA and Privacy Act cases. The
           projection was made using attribute sampling, with a 90 percent confidence level and
           an actual error rate of 6.1 percent. As a result, the actual precision factor was
           +4.32 percent.


1
  5 U.S.C.A § 552 (West Supp. 2003).
2
  I.R.C. § 6103 (2004).
3
  5 U.S.C. § 552a (2000).



                                                                                          Page 8
                          Compliance With Freedom of Information Act
                                 Requirements Has Increased




      E. Based on results from Step I.C., projected the number of untimely determinations in
         the range of 168 to 770 (2.6 percent to 12.0 percent) FOIA and Privacy Act cases.
         The projection was made using attribute sampling, with a 90 percent confidence level
         and an actual error rate of 7.3 percent. As a result, the actual precision factor was
         +4.70 percent.
II.   Determined if the IRS Disclosure offices adhered to legal requirements when denying
      written requests received from taxpayers under I.R.C. § 6103.
      A. From the national extract obtained for Step I.A., identified 15,948 I.R.C. §§ 6103 (c)
         and (e) requests.
      B. Designed an attribute sample based on a 90 percent confidence level, an expected
         error rate of 8.74 percent, and an estimated precision of +5 percent. This sampling
         methodology was chosen because it would allow us to project the number of cases
         with improper withholdings to the universe of closed I.R.C. §§ 6103 (c) and (e)
         requests where information was partially or fully denied or where the IRS replied that
         responsive records did not exist.
      C. Initially selected a random sample of 300 of the 15,948 I.R.C. §§ 6103 (c) and (e)
         closed cases. We reviewed the first 294 cases sampled to obtain the required number
         of cases to statistically project our results.
         1. Determined 87 (29.6 percent) of the 294 reviewed cases included instances where
            information was partially or fully denied or where the IRS replied that responsive
            records did not exist.
         2. Based on an initial analysis of the 294 cases, estimated the population of
            15,948 closed I.R.C. §§ 6103 (c) and (e) requests contained 4,719 where
            information was partially or fully denied or where the IRS replied responsive
            records did not exist.
      D. Reviewed the 87 cases where information was partially or fully denied, or where the
         IRS replied that responsive records did not exist, and determined if the decision to
         withhold the information based on I.R.C. § 6103 was appropriate.
      E. Based on results from Step II.D., projected the number of improper withholdings in
         the range of 2 to 233 (.04 percent to 4.94 percent) for the I.R.C. §§ 6103 (c) and (e)
         requests. The projection was made using attribute sampling, with a 90 percent
         confidence level and an actual error rate of 2.3 percent. As a result, the actual
         precision factor was +2.64 percent.




                                                                                          Page 9
                          Compliance With Freedom of Information Act
                                 Requirements Has Increased




                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Michael E. McKenney, Director
Curtis W. Hagan, Director
Carl L. Aley, Director
Richard J. Viscusi, Acting Audit Manager
Joan R. Floyd, Lead Auditor
Mark A. Judson, Senior Auditor
Meaghan R. Shannon, Senior Auditor
Michael Della Ripa, Auditor




                                                                                    Page 10
                          Compliance With Freedom of Information Act
                                 Requirements Has Increased




                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Governmental Liaison and Disclosure SE:S:CLD:GLD
Chief, Disclosure Branch SE:S:CLD:GLD:D
Freedom of Information Act Senior Tax Law Specialist SE:S:CLD:GLD:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 11
                               Compliance With Freedom of Information Act
                                      Requirements Has Increased




                                                                                  Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that the recommended
corrective actions made in prior TIGTA reports will have on tax administration. These benefits
will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
    •   Taxpayer Rights – Potential; 391 responses to FOIA1 or Privacy Act of 19742 requests
        where information was improperly withheld during the 6-month period April 1, 2005,
        through September 30, 2005 (see page 4).

Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of FOIA and Privacy Act requests
that were closed nationally during the period April 1, 2005, through September 30, 2005, as
1) a full or partial denial with either FOIA exemption (b)(3), in conjunction with I.R.C. § 6103,3
and/or FOIA exemption (b)(7) cited as one of the reasons for withholding information or
2) where the IRS replied responsive records did not exist. We arrived at the estimate by:
•   Multiplying the number of requests closed as partially or fully denied based on FOIA
    exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7) or where
    the IRS replied responsive records did not exist by the error rate of cases reviewed. In
    5 (6.1 percent) of the 82 cases reviewed, the IRS did not provide complete responses and
    improperly withheld information from requestors. A case was considered an “error” if a
    Disclosure office improperly withheld information that was available and could have been
    released under the FOIA and the Privacy Act.
    6,409 * 6.1 percent = 391 cases.




1
  5 U.S.C.A. § 552 (West Supp. 2003).
2
  5 U.S.C. § 552a (2000).
3
  I.R.C. § 6103 (2004).



                                                                                           Page 12
                                Compliance With Freedom of Information Act
                                       Requirements Has Increased




Type and Value of Outcome Measure:
    •   Taxpayer Rights – Potential; 109 responses to I.R.C. § 6103 requests where information
        was improperly withheld during the 6-month period April 1, 2005, through
        September 30, 2005 (see page 4).

Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of I.R.C. §§ 6103 (c) and (e)
requests that were closed nationally during the 6-month period April 1, 2005, through
September 30, 2005. The Disclosure offices are not required to input a disposition code showing
how I.R.C. § 6103 cases are closed (granted, denied, etc.). We arrived at the estimate by:
•   Identifying 15,948 closed I.R.C. §§ 6103 (c) and (e) requests.
•   Randomly selecting for review 294 of these cases to estimate the universe of denied, partially
    denied, or no requested record available cases closed during the period April 1, 2005,
    through September 30, 2005.
•   Multiplying the total number of closed requests in the audit universe by the percentage of
    cases in the sample where information was partially or fully denied or where the IRS replied
    that responsive records did not exist (87 of 294 or 29.6 percent).
•   15,948 * 29.6 percent4 = 4,719 cases.
•   Multiplying the estimated universe of cases where information was partially or fully denied,
    or where the IRS replied that responsive records did not exist, by the error rate for the cases
    reviewed. In 2 (2.3 percent) of the 87 cases reviewed, the IRS did not provide complete
    responses and improperly withheld information from requestors. A case was considered an
    “error” if the Disclosure office improperly withheld information from the requestor.
•   4,719 * 2.3 percent = 109 cases.

Type and Value of Outcome Measure:
    •   Taxpayer Rights – Potential; 469 FOIA and Privacy Act requests that were not processed
        timely during the 6-month period April 1, 2005, through September 30, 2005
        (see page 6).




4
 This figure was rounded to 29.6 for report presentation purposes; however, the actual percentage of 29.59 percent
was used in the calculation.



                                                                                                          Page 13
                          Compliance With Freedom of Information Act
                                 Requirements Has Increased




Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of FOIA and Privacy Act requests
that were closed nationally during the 6-month period April 1, 2005, through
September 30, 2005, as 1) a full or partial denial with either FOIA exemption (b)(3), in
conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for
withholding information or 2) where the IRS replied responsive records did not exist. We
arrived at the estimate by:
•   Multiplying the number of requests closed as partially or fully denied based on FOIA
    exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7), or
    where the IRS replied responsive records did not exist by the percentage of untimely
    responses. In 6 (7.3 percent) of the 82 cases reviewed, the IRS was not timely in providing
    responses to requestors.
    6,409 * 7.3 percent = 469 cases.




                                                                                        Page 14
